=>
I

OCKLE

2311 Douglas Street CA L 1 Brief E-Mail Address:
a 1
Omaha, Nebraska 68102-1214 £8 ee ia contact@cocklelegalbriefs.com
3
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
es
Fax: (402) 342-4850 No

KENT ERIC LEBERE,
Petitioner,
Vv.
TRAVIS TRANI. et al.
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of August, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
LAURENCE W. DEMUTH, IIL JAMES L. VOLLING
FAEGRE DRINKER BIDDLE Counsel of Record
& REATH LLP MARTIN S. CHESTER

1470 Walnut Street JEFFREY P. JUSTMAN

Suite 3000 NATHANIEL ZYLSTRA
Boulder, CO 80302 NICHOLAS J. NELSON

FAEGRE DRINKER BIDDLE
& REATH LLP

2200 Wells Fargo Ctr.

90 South Seventh Street

Minneapolis, MN 55402

612-766-7758

james. volling@
faegredrinker.com

Counsel for Petitioner
Kent Eric LeBere

Subscribed and sworn to before me this 30th day of August, 2021
1am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL WOTARY-State of Nebraska 1 / & hb
RENEE J. GOSS

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 41350
SERVICE LIST

Ryan Crane

Office of the Attorney General for the State of Colorado
Ralph L. Carr Colorado Judicial Center

1300 Broadway

Denver, CO 80203

720-508-6000

ryan.crane@coag.gov
